     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103



April 21, 2010


Report Number: A-09-09-00107

Mr. Toby Douglas
Chief Deputy Director of Health Care Programs
California Department of Health Care Services
1501 Capitol Avenue, MS 0002
Sacramento, CA 95814

Dear Mr. Douglas:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Credit Balances at Mercy San Juan
Medical Center as of July 31, 2009. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact Doug
Preussler, Audit Manager, at (415) 437-8360 or through email at Doug.Preussler@oig.hhs.gov.
Please refer to report number A-09-09-00107 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Toby Douglas


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




 REVIEW OF MEDICAID CREDIT
BALANCES AT MERCY SAN JUAN
      MEDICAL CENTER
     AS OF JULY 31, 2009




                      Daniel R. Levinson
                       Inspector General

                          April 2010
                        A-09-09-00107
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In California, the Department of Health Care
Services (the State agency) administers Medicaid.

The Federal Government pays its share of a State’s Medicaid payments based on the Federal
medical assistance percentage (FMAP), which varies depending on the State’s relative per capita
income. Pursuant to the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5,
States’ FMAPs are temporarily increased for Federal fiscal year (FY) 2009, FY 2010, and the
first quarter of FY 2011.

Credit balances may occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the program payment ceiling or allowable costs,
resulting in an overpayment. Credit balances may also occur when a provider receives payments
for the same services from the Medicaid program and another third-party payer. In such cases,
the provider should return the overpayment to the Medicaid program, which is the payer of last
resort.

Section 1903(d)(2)(C) of the Act, implemented at 42 CFR § 433.300(b), states: “… when an
overpayment is discovered … the State shall have a period of 60 days in which to recover or
attempt to recover such overpayment before adjustment is made in the Federal payment to such
State on account of such overpayment. … [T]he adjustment in the Federal payment shall be
made at the end of the 60 days, whether or not recovery was made.”

The State agency does not have any regulations requiring providers to refund Medicaid credit
balances within a specific timeframe. However, State Medicaid cost report instructions state that
it is the provider’s responsibility to maintain an effective system to prevent, detect in a timely
fashion, and take proper corrective action for Medicaid overpayments. In addition, providers
must report outstanding credit balances as part of their annual cost report submissions and refund
any overpayments when the State agency settles the cost reports.

Mercy San Juan Medical Center (Mercy) is an acute-care hospital located in Carmichael,
California. Mercy reported that it was reimbursed by the State agency approximately
$25.5 million for Medicaid services for the FY ended June 30, 2009.




                                                i
OBJECTIVE

Our objective was to determine whether the Medicaid credit balances recorded in Mercy’s
accounting records as of July 31, 2009, for inpatient and outpatient services represented
overpayments that Mercy should have returned to the Medicaid program.

SUMMARY OF FINDING

As of July 31, 2009, Mercy’s Medicaid accounts with credit balances included 23 overpayments
totaling $121,574 ($73,681 Federal share) that had not been returned to the Medicaid program.
The Federal share consists of $60,787 that we calculated using the regular FMAP for FYs 2006
through 2009 and $12,894 in additional payments that we calculated using the increased FMAP
for FY 2009. The ages of the 23 overpayments ranged from 8 to 556 days.

Mercy did not return 19 of the 23 overpayments totaling $118,632 ($72,210 Federal share) to the
State agency because Mercy lacked adequate policies and procedures to prevent, detect in a
timely fashion, and take proper corrective action for Medicaid overpayments. Mercy did not
return the remaining four overpayments totaling $2,942 ($1,471 Federal share) because Mercy
received letters from the State agency indicating that the State agency would retract the
overpayments and that Mercy should not refund them.

RECOMMENDATIONS

We recommend that the State agency:

      refund to the Federal Government $73,681 (Federal share) in Medicaid overpayments to
       Mercy and

      work with Mercy to ensure that it develops adequate policies and procedures to prevent,
       detect in a timely fashion, and take proper corrective action for Medicaid overpayments.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency agreed with our recommendations. The
State agency’s comments are included in their entirety as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program................................................................................................1
              Medicaid Credit Balances ....................................................................................1
              Federal and State Requirements...........................................................................1
              Mercy San Juan Medical Center ..........................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope....................................................................................................................2
               Methodology ........................................................................................................2

FINDING AND RECOMMENDATIONS...............................................................................3

          OUTSTANDING CREDIT BALANCE ACCOUNTS WITH MEDICAID
           OVERPAYMENTS ......................................................................................................3

          RECOMMENDATIONS.................................................................................................4

          STATE AGENCY COMMENTS....................................................................................4

APPENDIX

          DEPARTMENT OF HEALTH CARE SERVICES COMMENTS




                                                                    iii
                                          INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In California, the Department of Health Care
Services (the State agency) administers Medicaid.

The Federal Government pays its share of a State’s Medicaid payments based on the Federal
medical assistance percentage (FMAP), which varies depending on the State’s relative per capita
income. Pursuant to the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5
(Recovery Act), States’ FMAPs are temporarily increased for Federal fiscal year (FY) 2009,
FY 2010, and the first quarter of FY 2011. The regular FMAP for California’s Medicaid
payments for FYs 2006 through 2009 was 50 percent. For FY 2009, the FMAP increased 11.59
percentage points to 61.59 percent because of the Recovery Act.

Medicaid Credit Balances

Credit balances may occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the program payment ceiling or allowable costs,
resulting in an overpayment. Credit balances may also occur when a provider receives payments
for the same services from the Medicaid program and another third-party payer. In such cases,
the provider should return the overpayment to the Medicaid program, which is the payer of last
resort.

Federal and State Requirements

Section 1903(d)(2)(C) of the Act, implemented at 42 CFR § 433.300(b), states: “… when an
overpayment is discovered … the State shall have a period of 60 days in which to recover or
attempt to recover such overpayment before adjustment is made in the Federal payment to such
State on account of such overpayment. … [T]he adjustment in the Federal payment shall be
made at the end of the 60 days, whether or not recovery was made.”

The State agency does not have any regulations requiring providers to refund Medicaid credit
balances within a specific timeframe. However, State Medicaid cost report instructions state that
it is the provider’s responsibility to maintain an effective system to prevent, detect in a timely
fashion, and take proper corrective action for Medicaid overpayments. In addition, providers
must report outstanding credit balances as part of their annual cost report submissions and refund
any overpayments when the State agency settles the cost reports.



                                                1
Providers must submit their annual Medicaid cost reports within 150 days after the end of the
provider fiscal year. Pursuant to section 14170(a)(1) of the California Welfare and Institutions
Code, the State agency has 3 years after the provider’s fiscal year or the date of the submission,
whichever is later, to audit or review the cost report.

Mercy San Juan Medical Center

Mercy San Juan Medical Center (Mercy) is an acute-care hospital located in Carmichael,
California. Mercy reported that it was reimbursed by the State agency approximately
$25.5 million for Medicaid services for the FY ended June 30, 2009.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicaid credit balances recorded in Mercy’s
accounting records as of July 31, 2009, for inpatient and outpatient services represented
overpayments that Mercy should have returned to the Medicaid program.

Scope

Mercy’s inpatient and outpatient accounting records contained 1,059 Medicaid accounts with
credit balances totaling $581,661 as of July 31, 2009. We reviewed 151 accounts with credit
balances of $600 or more, totaling $506,172. Of these accounts, 23 included Medicaid
overpayments due to the State agency.

Our objective did not require an understanding or assessment of the complete internal control
system at Mercy. We limited our review of internal controls to obtaining an understanding of the
policies and procedures that Mercy used to review credit balances and report overpayments to
the State Medicaid program.

We performed our fieldwork at Mercy’s corporate offices in Rancho Cordova, California, from
August 2009 to January 2010.

Methodology

To accomplish our objective, we:

       reviewed Federal and State requirements pertaining to Medicaid credit balances and
        overpayments;

       reviewed Mercy’s policies and procedures for reviewing credit balances and reporting
        overpayments to the State agency;

       traced Mercy’s July 31, 2009, total credit balances to the accounts receivable records and
        traced the accounts receivable records to the balance sheet;


                                                 2
      identified Mercy’s Medicaid credit balances from its accounting records and reconciled
       these credit balances to Mercy’s Medicaid credit balances report as of July 31, 2009;

      reviewed Mercy’s accounting records for accounts with credit balances of $600 or more,
       including patient payment data, Medicaid claim forms and remittance advices, patient
       accounts receivable detail, and additional supporting documentation;

      calculated the Federal share of overpayments by applying the regular FMAP of
       50 percent for FYs 2006 through 2009 and the additional FMAP of 11.59 percent for
       FY 2009; and

      coordinated our audit with State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

As of July 31, 2009, Mercy’s Medicaid accounts with credit balances included 23 overpayments
totaling $121,574 ($73,681 Federal share) that had not been returned to the Medicaid program.

OUTSTANDING CREDIT BALANCE ACCOUNTS WITH MEDICAID
OVERPAYMENTS

As of July 31, 2009, Mercy’s Medicaid accounts with credit balances included 23 overpayments
totaling $121,574 ($73,681 Federal share) that had not been returned to the Medicaid program.
The Federal share consists of $60,787 that we calculated using the regular FMAP of 50 percent
for FYs 2006 through 2009 and $12,894 in additional payments that we calculated using the
additional FMAP of 11.59 percent for FY 2009. The ages of the 23 overpayments ranged from 8
to 556 days, as the following table summarizes.

                          Ages of Overpayments as of July 31, 2009

                                                    Overpayment          Federal
              Days            No. of Accounts         Amount              Share
              1–60                    8                 $96,941            $59,511
              61–180                  9                  11,815              6,561
              181–365                 5                  11,830              7,115
              366–730                 1                     988                494
              > 730                   0                       0                  0
              Total                  23                $121,574            $73,681


                                                3
Mercy did not return 19 of the 23 overpayments totaling $118,632 ($72,210 Federal share) to the
State agency because Mercy lacked adequate policies and procedures to prevent, detect in a
timely fashion, and take proper corrective action for Medicaid overpayments. Mercy did not
return the remaining four overpayments totaling $2,942 ($1,471 Federal share) because Mercy
received letters from the State agency indicating that the State agency would retract the
overpayments and that Mercy should not refund them.

RECOMMENDATIONS

We recommend that the State agency:

      refund to the Federal Government $73,681 (Federal share) in Medicaid overpayments to
       Mercy and

      work with Mercy to ensure that it develops adequate policies and procedures to prevent,
       detect in a timely fashion, and take proper corrective action for Medicaid overpayments.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency agreed with our recommendations. The
State agency’s comments are included in their entirety as the Appendix.




                                               4
APPENDIX
                                                                                                                  Page 10f3

       APPENDIX: DEPARTMENT OF HEALTH CARE SERVICES COMMENTS 




                              State of California- Health and Human Services Agency
 ~HCS
                              Department of Health Care Services
W
DAVID MAXWELL.JOLLY
       Director
                                                                                                           ARNOLD SCHWARZENEGGER
                                                                                                                  Governor



        March 25, 2010

        Ms. Lori A. Ah lstrand 

        Regiona l Inspector General for Audit Services 

        Office of Inspector General
        90 7" Street, Suite 3-650 

        San Francisco, CA 94103 


        Dear Ms. Ahlstrand :

        The California Department of Health Care Services (DHCS) has prepared its response
        to the U.S. Department of Health and Human Services, Office of Inspector General
        (OIG), draft report entitled "Review of Medicaid Credit Balanoes at Mercy San Juan
        Medical Center as of July 31, 2009" (A-09-09-00107). DHCS appreciates the work
        performed by the OIG and the opportunity to respond to the draft report.

        Please contact Ms. Traci Wa lter, Audit Coordinator, at (9 16) 650-0298 if you have any
        questions.

        Sincerely,

        Original signed by

        Toby Douglas
        Chief Deputy Director
        Health Care Programs

        cc:      See next page




                      1501 Capitol Avenue , Suite 71 .6001 , MS 0002 • P.O. 9974 13 • Sacramento, CA 95899·7413
                                                (916) 440·7400 · (916) 440·7404 FAX
                                                  Internet address: www.dhcs.ca.gov
                                             Page 20f3




Ms. Lori A. Ahlstrand
Page 2
March 25, 2010



cc: 	   Ms. Karen Johnson
        Chief Deputy Director
        Policy and Program Suppori
        1501 Capitol Avenue, MS 0005
        P.O. Box 997413
        Sacramento, CA 95899-7413

        Mr. Robert O'Neill 

        Deputy Director 

        Audits and Investigations Division
        1501 Capitol Avenue, MS 2000
        P.O. Box 997413
        Sacramento, CA 95899-7413

        Mr. Bill Alameda, Chief
        Financial Aud its Branch
        Audits and Investigations Division
        1501 Capito l Avenue, MS 2100
        P.O. Box 997413
        Sacramento , CA 95899-7413
                                                                                   Page 3 of3




                          Department of Health Care Services
          Response to the Office of Inspector General's Draft Report Entitled

                       Review of Medicaid Credit Balances at
                  Mercy San Juan Medical Center as of July 31, 2009


Recommendation:     We recommend that the State agency refund to the Federal Government
                    $73,681 (Federal share) in Medicaid overpayments to Mercy.

Response:           The Department of Health Care Services (DHCS) agrees with the
                    recommendation and willI) seek recovery of$121,574 ($73,681 Federal
                    share) in Medicaid overpayments made to Mercy San Juan Medical
                    Center and 2) refund $73,68 1 to the Federal Government.

                    Documentation provided by the Office of Inspector (DIG) indicates that
                    Mercy San Juan had cleared $118,377 ($72,114 Federal share) of
                    Medicaid overpayments as of December 28, 2009. DHCS' Au dit Review
                    and A nalysis Section will review the documentation provided by the DIG
                    and will work with Mercy San Juan to resolve the rema ining cred it
                    balances.

Recomm endation : We recommend that the State agency work with Mercy to ensure that it
                  develops adequate policies and proced ures to prevent, detect in a timely
                  fashion , and take proper corrective action for Medicaid overpayments.

Response:           The DHCS Financial Audits Branch (FAB) conducts annual Medi-Cal
                    cost report audits of all acute care facilities. These audits include steps
                    to review for credit balances. The audit of future cost reports for Mercy
                    San Juan Medical Center will include a review for credit balances. FAB
                    will wo rk with Mercy San Juan during these audits to ensure adequate
                    policies and procedures are developed .




                                              1

